3fn tfje Supreme Court of tfje tetteir States

MICHAEL MOGAN,
Petitioner
v.
Jeff Henry, Et Al.
Respondents

On Petition for a Writ of Certiorari to the Court
of Appeal of the State of California,
First Appellate Division

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,342 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Exeauted\o:

Dril 30, 2021.

Michael Mogan, Pro Se

